    Oversight of Equitable Adjustments

                       Audit Report




                                  September 28, 2012

Report Number CA-AR-12-006
                                                                    September 28, 2012

                                                 Oversight of Equitable Adjustments

                                                                          CA-AR-12-006




BACKGROUND:
An equitable adjustment (EA) is              release discharging the Postal Service
intended to compensate the U.S. Postal       from further costs and liabilities for
Service or a supplier for changes to a       14 EAs (58 percent). As a result, the
contract. Contracting officers (COs)         Postal Service is exposed to
must promptly negotiate EAs with             unnecessary risks from future legal
suppliers.                                   claims, protests, adjustments, and
                                             contract termination.
The Postal Service does not track EAs
in its contract management systems. As       Additionally, the level of tracking of EAs
a result, our audit scope was limited to     within the Postal Service’s contracting
40 contract change orders identified by      systems was not adequate to protect its
a survey of Postal Service managers for      interests. As EAs can have a significant
fiscal years 2010 and 2011. We               impact on contract costs, they should be
determined that 24 change orders             tracked and monitored to assure
(totaling about $33.1 million) resulted in   adequate oversight. Finally, Postal
an EA being paid to suppliers, but we        Service personnel were unable to locate
cannot be certain that we identified all     the contract file for two EAs with
EAs.                                         payments totaling $80,347.

Our objective was to evaluate EA             WHAT THE OIG RECOMMENDED:
oversight in accordance with Postal          We recommended management require
Service policies and procedures to           COs to include a general release of
protect Postal Service interests.            claims in all supplemental agreements
                                             or a more specific release in complex or
WHAT THE OIG FOUND:                          contentious EAs. We also
The 24 EAs generally received review         recommended that management
and oversight consistent with current        enhance contracting systems to identify
Postal Service policies and procedures.      EAs and reiterate the contract file
Postal Service personnel performed           tracking process to ensure the
price/cost analyses and appropriate          accountability of contract files.
reviews and approvals. However, they
did not require the supplier to sign a       Link to review the entire report.
September 28, 2012

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Oversight of Equitable Adjustments
                           (Report Number CA-AR-12-006)

This report presents the results of our audit of the Oversight of Equitable Adjustments
(Project Number 12WG005CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Stephen J. Masse
    Susan A. Witt
    Corporate Audit and Response Management
Oversight of Equitable Adjustments                                                                                   CA-AR-12-006




                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Equitable Adjustments Generally Received Review and Oversight Consistent With

   Policy ........................................................................................................................... 2

Release of Claims not Included in the Supplemental Agreement .................................... 3

The Postal Service Does not Track Equitable Adjustments ............................................ 4

Postal Service Personnel Could not Locate Contract File ............................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Scope Limitation .......................................................................................................... 8

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impact ......................................................................................... 9

Appendix C: Management’s Comments ........................................................................ 10
Oversight of Equitable Adjustments                                                                   CA-AR-12-006




Introduction

This report presents the results of our audit of the Oversight of Equitable Adjustments
(EAs) (Project Number 12WG005CA000). Our objective was to evaluate EA oversight in
accordance with Postal Service policies and procedures to protect Postal Service
interests. This self-initiated audit addresses operational risk. See Appendix A for
additional information about this audit.

An EA is an adjustment to a contract pursuant to a changes clause and is intended to
compensate a supplier for Postal Service actions or compensate the Postal Service for
contract reductions.1 Contracting officers (COs) must promptly negotiate EAs resulting
from change orders and follow up when EA claims are not received within 30 days of
the order. Before negotiating an EA, the CO must ensure that price and cost analyses
are completed and must consider the supplier’s segregable costs2 for the change. To
avoid controversies that may result from making an EA, the CO should ensure that all
elements of the EA have been presented and resolved and include a release of claims
in the supplemental agreement.

Because the Postal Service does not track EAs within its contract management
systems, we limited our audit scope to 40 contract change orders identified by surveying
Category Management Center (CMC) managers for fiscal years (FY) 2010 and 2011.
We determined that 24 change orders (totaling about $33.1 million) resulted in EAs
being paid to suppliers. The following table details the disposition of the 40 contract
change orders.

                              Table 1. Disposition of Sample Universe

                                                                                Number of
                     Disposition of Sample Change Order                        Occurrences
                   EAs included in our review                                           24
                   Contract modification out of our audit
                                                                                              14
                   scope 3
                   Change orders related to lost contract file                                 2
                   Total Universe                                                             40
                  Source: U.S. Postal Service Office of Inspector General (OIG) review of contract
                  change orders identified by surveying CMC managers.




1
  We did not review any EAs paid to the Postal Service.
2
  Cost of added work that is allocatable to the change order.
3
  Contract modification not made pursuant to a changes clause or involving zero dollars.
                                                           1
Oversight of Equitable Adjustments                                            CA-AR-12-006



Conclusion

The 24 EAs generally received review and oversight consistent with current Postal
Service policies and procedures. Specifically:

     Suppliers timely submitted written notice of EA requests.

     Postal Service personnel performed price/cost analyses.

     Postal Service personnel requested legal counsel and third-party (for example,
      Defense Contracting Audit Administration [DCAA]) audits/reviews when appropriate.

     Postal Service personnel negotiated EAs timely.

     Postal Service personnel performed appropriate reviews and approvals.

However, the release of claims was not included in the supplemental agreement for
14 EAs (58 percent). As a result, the Postal Service is exposed to unnecessary risks
from future legal claims, protests, adjustments, and contract termination.

In addition, the level of tracking was not adequate to protect the Postal Service’s
interests. Specifically, the Postal Service does not track EAs within its contracting
systems. As EAs can have a significant impact on contract costs, they should be
tracked and monitored to ensure adequate oversight. Finally, Postal Service personnel
were unable to locate the contract file for two EAs4 with payments totaling $80,347.

Equitable Adjustments Generally Received Review and Oversight Consistent With
Policy

The 24 EAs we reviewed generally received review and oversight consistent with
current Postal Service policies and procedures. Specifically, Supplying Principles and
Practices5 (SP&P) state that, to avoid controversies that may result from a supplemental
agreement making an EA, the CO should ensure that all elements of the EA have been
presented and resolved.

Table 2 shows that 94 percent of the EA elements we reviewed were presented and
resolved in accordance with SP&P.




4
    The two EAs were related to the same contract.
5
    Supplying Practices 5-8.9, Administration of Change Orders.


                                                           2
 Oversight of Equitable Adjustments                                                                    CA-AR-12-006




                                    Table 2. Analysis of EA Elements

        EA Elements Reviewed                                   Yes                 No                    Total
 The CO included applicable clauses
 in the base contract.                                                116                     0                    11
 The supplier submitted timely7
 written notice.                                                      24                      0                    24
 The CO performed price/cost
 analysis.                                                            24                      0                    24
 The CO requested a DCAA audit
 when appropriate.                                                    24                      0                    24
 The CO requested legal counsel
 when appropriate.                                                    23                      1                    24
 The CO negotiated the EA timely8.                                    23                     19                    24
 The CO documented negotiations as
 necessary.                                                           24                      0                    24
 The CO negotiated the maximum
 price as necessary.                                                  24                      0                    24
 The CO ensured funds were
 available for the EA.                                                24                      0                    24
 Postal Service personnel properly
 reviewed and approved the EA.                                        24                      0                    24
 The CO ensured there was a signed
 release of claims.                                                   10                    14                     24
 The CO properly documented the
 contract file.                                                        24                    0                   24
 Total                                                                259                   16                  275
 Percentage                                                          94%                   6%                 100%
Source: OIG review of 24 EAs.

 Release of Claims not Included in the Supplemental Agreement

 The 14 instances that did not include a release of claims in the supplemental agreement
 occurred because:

    The CO did not believe a release of claims was necessary (four EAs).

    There was an oversight on the part of the CO (six EAs).

 6
   A base contract can have multiple EAs. We reviewed 11 base contracts with a total of 24 EAs.
 7
   SP&P Clause 4-1, General Terms and Conditions, states the supplier’s claim for an EA must be asserted within
 30 days of receiving a written change order. A later claim may be acted upon if the CO decides the facts justify such
 action but not after final payment under the contract.
 8
   Supplying Practice 5-8.9 states that, before negotiating an EA, the CO must ensure that price and cost analyses, as
 appropriate, are done and must consider the supplier's segregable costs of the change, if available.
 9
   The EA was not negotiated timely; however, the CO negotiated a fair and reasonable settlement with the supplier
 that protected the Postal Service’s interests.


                                                           3
Oversight of Equitable Adjustments                                                             CA-AR-12-006




    The release of claims was included at contract close-out instead of with the
     supplemental agreement (four EAs).

SP&P10 state that, to avoid controversies that may result from a supplemental
agreement making an EA, the CO should include a release of claims in the
supplemental agreement.

It is important that a release of claims be included for each EA because the contractor
has to agree that the compensation provided by the modification constitutes full and
complete satisfaction for all costs. Additionally, a release of claims discharges the
Postal Service from all liabilities under an EA. As a result of the release of claims not
being included for every supplemental agreement, the Postal Service is exposed to
unnecessary risks from future legal claims, protests, adjustments, and contract
termination.

The Postal Service Does not Track Equitable Adjustments

The Postal Service does not track EAs within its contracting systems.11 Specifically, the
systems do not contain codes that identify contracting actions as EAs. Postal Service
personnel recently changed the action reason codes in CAMS; however, the codes do
not specifically identify EAs. Therefore, to identify a universe of EAs, we had to survey
CMC managers. This level of tracking is not adequate to ensure proper management of
EAs and protect the Postal Service’s interests.

Postal Service Personnel Could not Locate Contract File

Postal Service personnel could not locate the contract file for two EAs with payments
totaling $80,347. The contract was for the construction of a security fence. The EAs
were for a revised scope to include clearing of trees, changes to fence quantities, and
additional labor. The contract file was lost during the transfer of responsibilities from one
Facility Services Office to another in August 2011. Postal Service personnel stated they
instituted a process to track contract files.12 However, the contract file could not be
located. Postal Service policy13 states that contract records are required to be closed at
the end of the fiscal year during which they become inactive and must be retained for
6 years thereafter. When the contract file is missing, signature copies of the contract,
modifications and other decision documents are not available to support key contract
decisions. These costs will be reported as unsupported questioned costs (see Appendix
B).



10
   Supplying Practice 5-8.9.
11
   The systems included in our review were the Contract Authoring Management System (CAMS) and electronic
Facility Management System (eFMS).
12
   Contract File Transfer Process, dated May 2011.
13
   Handbook AS-353, Guide to Privacy, the Freedom of Information Act, and Records Management, Appendix C,
Section USPS 400.00, Supplier and Tenant Records.


                                                      4
Oversight of Equitable Adjustments                                             CA-AR-12-006




Recommendations

We recommend the vice president, Supply Management:

1. Require contracting officers to include a general release of claims in all
   supplemental agreements that constitute a release by the supplier for additional
   costs beyond that which is provided for in the contract modification or a more
   specific release in complex or contentious equitable adjustments.

2. Enhance contracting systems to identify equitable adjustments.

3. Reiterate the contract file tracking process to ensure contract files are not lost when
   they are transferred from one office to another.

Management’s Comments

Management generally agreed with the findings and monetary impact. Regarding
recommendation 1, management stated that its current administration of task orders
policy is adequate and disagreed with an absolute requirement for COs to include a
release of claims with every EA. However, management agreed to re-educate
employees on the use of release of claims to ensure the best interests of the Postal
Service by November 2012.

Regarding recommendation 2, management disagreed and stated that its contracting
systems provide proper coding to identify a contracting action that may result in an EA.
Management also stated that, in FY 2011, it updated the contract modification action
reasons in CAMS to be consistent with the Federal Procurement Data System and an
EA, by itself, is not a contract action. Therefore, management stated that it does not
believe a separate code to identify an EA is necessary. However, management agreed
to provide information on the use of the contact modification action reason coding to
employees by November 2012.

Management agreed with recommendation 3 and will provide further guidance
regarding the contract file tracking process to employees by November 2012. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management‘s comments responsive to recommendations 1 and 3
and corrective action should resolve the issues identified in the report. Regarding
recommendation 1, we believe the planned action will satisfy the recommendation if
COs are instructed to include a justification in the contract file for situations where a
release of claims is not obtained. Regarding recommendation 3, we believe the planned
action to provide further guidance regarding the contract file tracking process to
employees will address the respective issue identified in the report.



                                             5
Oversight of Equitable Adjustments                                          CA-AR-12-006




We do not consider management's comments to be responsive to recommendation 2
but do not plan to pursue the issue through the formal audit resolution process.
Therefore, we are closing the recommendation with the issuance of this report. We
agree that current contract modification action reasons in CAMS generally match those
in the Federal Procurement Data System. However, during the audit, the Postal Service
could not readily provide a universe of EAs. This level of tracking is not adequate to
protect the Postal Service’s interests and alternatives should be considered.

The OIG considers recommendations 1 and 3 significant, and, therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation that
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           6
Oversight of Equitable Adjustments                                             CA-AR-12-006



                                   Appendix A: Additional Information

Background

An EA is an adjustment to a contract pursuant to a changes clause to compensate a
supplier for expenses incurred due to actions of the Postal Service or to compensate
the Postal Service for contract reductions. An EA includes an allowance for profit.

The Postal Service SP&P14 identifies two types of contract modifications:

1. Bilateral modifications (supplemental agreements) are signed by both the supplier
   and the CO. Bilateral modifications include modifications to 1) make EAs under
   Paragraph C of Clause 4-1, General Terms and Conditions, Clause B-37, Changes
   (Construction), or other clauses providing for EAs; and 2) reflect other agreements of
   the parties modifying contract terms.

2. Unilateral modifications are signed only by the CO in accordance with a contract
   clause. Unilateral modifications include modifications to 1) make administrative
   changes (unilateral changes, in writing, that do not affect the substantive rights of
   the parties, such as a change in the paying office); 2) issue change orders; 3) make
   changes authorized by specific clauses or contract provisions (such as exercising an
   option or suspending work); and 4) issue termination notices.

Contract modifications — including changes that can be issued unilaterally — must be
priced before they are signed if it can be done without adversely affecting the interests
of the Postal Service. If a significant cost increase could result from a contract
modification and time does not permit negotiating a price, at least a maximum price
must be negotiated whenever possible.

COs must promptly negotiate EAs resulting from change orders and follow up when EA
claims are not received within 30 days after the order.15 Before negotiating an EA, the
CO must ensure that price and cost analyses, as appropriate, are made and must
consider the supplier’s segregable costs of the change, if available. If additional funds
are required as a result of the change, the funds must be available before the
supplemental agreement is signed. To avoid controversies that may result from making
an EA, the CO should ensure that all elements of the EA have been presented and
resolved and include a release of claims in the supplemental agreement.

Objective, Scope, and Methodology

Our objective was to evaluate EA oversight in accordance with Postal Service policies
and procedures to protect Postal Service interests. To accomplish our objective we:



14
     Supplying Practices 5-8.1, Types.
15
     Supplying Practices 5-8.9.


                                                   7
Oversight of Equitable Adjustments                                              CA-AR-12-006



   Surveyed CMC managers and identified 40 contract change orders awarded in
    FYs 2010 and 2011 that they identified as EAs. We reviewed the identified contract
    files and determined that 24 were actual change orders that resulted in EAs being
    paid to suppliers.

   Reviewed the contract files at the applicable CMCs for the identified contract change
    orders to determine compliance with Postal Service policies and procedures and
    whether documentation was adequate and complete.

   Interviewed CMC managers and COs regarding related EAs and policies relating to
    identifying, tracking, and managing EAs.

We conducted this performance audit from March through September 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 22, 2012, and included their
comments where appropriate.

We assessed the reliability of EA data by comparing the information obtained through
the survey of CMC managers and the review of contract files to the information in
CAMS and eFMS. We determined the data were sufficiently reliable for the purposes of
this report.

Scope Limitation

Because the Postal Service does not track EAs in CAMS and eFMS, we cannot be
certain that we identified all EAs paid in FYs 2010 and 2011.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit
issued during the past 3 years.




                                             8
Oversight of Equitable Adjustments                                                                    CA-AR-12-006



                                     Appendix B: Monetary Impact


             Recommendation                     Impact Category                             Amount
                   3                      Unsupported Questioned Costs16                     $80,347

The $80,347 represents total payments for the contract with the lost file. The contract
had two EAs totaling $6,334.80 ($2,597 + $3,737). The remaining contract payments
totaled $74,013.




16
  A weaker claim and a subset of questioned costs, claimed because of failure to follow policy or required
procedures, but does not necessarily connote any real damage to Postal Service.


                                                          9
Oversight of Equitable Adjustments                             CA-AR-12-006



                           Appendix C: Management’s Comments




                                          10
Oversight of Equitable Adjustments        CA-AR-12-006




                                     11
